        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
Funded under the American
Recovery and Reinvestment Act for
the State of Maryland




OAS-RA-13-07                     January 2013
                                 Department of Energy
                                   Washington, DC 20585

                                        January 17, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program Funded under the American
                         Recovery and Reinvestment Act for the State of Maryland"

BACKGROUND

The Department of Energy's (Department) Weatherization Assistance Program received
$5 billion under the American Recovery and Reinvestment Act of 2009 (Recovery Act) to
improve the energy efficiency of residences owned or occupied by low-income persons. The
Department subsequently awarded a 3-year Recovery Act Weatherization Assistance Program
(Weatherization Program) grant of $61.4 million to the State of Maryland (Maryland or State) to
weatherize 6,850 homes. This grant provided over eight times the approximately $7.4 million in
Weatherization funds made available to Maryland in Fiscal Year 2009.

Maryland's Department of Housing and Community Development administers the
Weatherization Program through 18 local agencies, comprised of 9 local governments, and 9
community action and other non-profit agencies. These entities are responsible for determining
applicant eligibility, assessing and weatherizing homes, and conducting home inspections.
Through June 30, 2012, the State had exceeded its goal, reportedly weatherizing about 11,350
homes, at a cost of approximately $60.4 million.

We initiated this audit to determine if Maryland had efficiently and effectively carried out the
goals of the Weatherization Program under the Recovery Act. We reviewed the State's Program
administration and examined the weatherization activities of three local agencies – Baltimore
City Department of Housing and Community Development (Baltimore City), Montgomery
County Department of Housing and Community Affairs (Montgomery County), and Prince
George's County Department of Housing and Community Development (Prince George's
County).

RESULTS OF AUDIT

Maryland, while achieving its production goals, had not always managed its Weatherization
Program efficiently and effectively. Specifically:
                                                2


     •   Local agencies charged 50 percent of total weatherization costs, up to $1,500 per house,
         for "program support" costs (costs necessary to weatherize a home that are not
         otherwise captured in the direct labor and materials) that were not substantiated. For
         example, Baltimore City, Maryland's largest agency, with nearly 30 percent of the
         State's funding, lacked underlying documentation, as required by Federal regulations, to
         support about $2.3 million charged to the Weatherization Program between October
         2009 and July 2011. Baltimore City officials intended to use the money accruing from
         program support surcharges to cover future weatherization needs. Officials told us the
         funds would enable the agency to weatherize homes after the Recovery Act awards
         expired, a practice expressly prohibited by Federal regulation.

         Further, recent State monitoring reports disclosed that other local agencies had not
         reconciled program support expenditures to reimbursements. Accordingly, we question
         a total $9.5 million (including the $2.3 million identified above) in estimated program
         support costs reimbursed to the State by the Department from October 2009 through
         December 31, 2011.

     •   Baltimore City had not fully complied with other Federal and State requirements
         governing costs and inventory controls. In particular, Baltimore either lacked
         documentation to support or had erroneously billed the Weatherization Program in 28
         instances, or more than 30 percent of the transactions we reviewed. In total, we
         questioned about $49,150 of the approximately $326,900 reviewed, excluding the
         program support charges previously questioned.

This report focuses on conditions common to the local agencies we reviewed. We have issued
separate reports on Montgomery County and Prince George's County for conditions that we
consider specific to those agencies. After learning of allegations regarding potential criminal
activity involving top management, Lani Eko & Company, CPAs, PLLC, (Lani Eko) an
independent public accounting firm under contract with the Office of Inspector General,
disclaimed an opinion on whether Prince George's County had complied with Weatherization
Program requirements. In December 2010, the County Director of the Department of Housing
and Community Development in charge of the Weatherization Program pled guilty to conspiracy
to commit extortion in relation to taking bribes from developers on housing projects. Although
the charges were unrelated to weatherization, the County Director was directly responsible for
management of the Program. The State and the Department have reviewed the County's
procurement and contracting practices and the State has increased the scope of its monitoring
activities to ensure that contracting practices are in accordance with Federal regulations.

The deficiencies we identified were caused by a lack of adherence to Federal regulations by local
agencies. Additionally, the deficiencies were not promptly detected because of a lack of
adequate local agency monitoring by the State. Specifically, Maryland's monitoring visits
focused primarily on programmatic rather than financial activities. In fact, from September 2009
through December 2010, the State had not performed a comprehensive financial review of any of
its 18 local agencies and had only developed its financial monitoring tool in January 2011.
                                                  3



As it relates to Baltimore City's practice of retaining program support surcharges to support
future weatherization efforts, we found that State agreements with local agencies were not
always consistent with State policy and Federal regulations. Specifically, State agreements with
local agencies allowed the roll forward of unexpended funds "into the general budget as benefit"
for the next State Plan which, according to the State, has been allowed under other Department
Weatherization Program agreements. Federal regulations, however, require that no grant funds
be expended after the grant's performance period. State officials told us that the State policy
actually required local agencies to return unexpended funds within a Weatherization Program
year to the State for reallocation to the local agencies in years following the initial budget period,
but not beyond the performance period. The variance in agreement versus policy requirements
likely contributed to Baltimore City's practice of retaining funds.

Baltimore City officials also told us the deficiencies we identified were the result of significant
Recovery Act demands and insufficient time for properly training financial staff. Officials
reportedly prioritized field training and production in an attempt to provide quality
weatherization services and to meet demanding weatherization goals. Subsequent to our field
work, State officials provided training on fiscal management and monitoring, as well as Federal
grants.

To its credit, the State requested financial documentation from local agencies prior to beginning
comprehensive financial reviews in January 2011. State officials told us that in May 2011, the
State sent auditors to Baltimore City and other local weatherization agencies whose volume
tended to indicate potential for overpaying program support. Department officials also identified
program support as an area of concern during their January 2011 and July 2011 site inspection
visits and requested that Maryland discontinue program support reimbursements to Baltimore
City until it could clearly account for reimbursements and expenditures. As a result of State and
Department reviews, the State notified Baltimore City that it was discontinuing program support
funding because of concerns regarding the lack of documentation in August 2011.

In the absence of immediate improvements in financial controls, the risk of fraud, waste and
abuse is increased. Overall, we question about $9.56 million in reimbursement claims for direct
weatherization expenditures and program support costs (see Appendix 1). Accordingly, we
made recommendations to improve the financial management of Maryland's Weatherization
Program.

MANAGEMENT REACTION

The Department, Maryland, and Baltimore City provided responses to our draft audit report. The
Department agreed to our recommendations and will continue to work with and monitor the
grantees and subgrantees to ensure resolution of the issues identified in the report. Maryland will
work with the Department and its local weatherization agencies to resolve our recommendation.
Baltimore City reported that the deficiencies noted in our report have been substantially
addressed and corrected.
                                              4


Montgomery County and Prince George's County responded separately to examination reports.
Montgomery County did not fully concur with Lani Eko's findings. Prince George's County
expressed disagreement with the disclaimed opinion. Lani Eko considered management
comments and made changes to its reports as it determined appropriate.

The comments from management are discussed in more detail in the body of the report, and are
included in Appendix 4.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM FUNDED UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT FOR THE STATE OF
MARYLAND


TABLE OF
CONTENTS

Maryland's Weatherization Assistance Program

Details of Finding ...................................................................................................................... 1

Recommendations ...................................................................................................................... 6

Comments .................................................................................................................................. 7


Appendices

1. Summary of Questioned Costs............................................................................................. 10

2. Objective, Scope and Methodology ..................................................................................... 11

3. Related Reports .................................................................................................................... 13

4. Management Comments ...................................................................................................... 16
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM FUNDED UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT FOR THE STATE OF
MARYLAND
MARYLAND'S       The State of Maryland (Maryland or State), while achieving its
WEATHERIZATION   production goals, had not always ensured that its weatherization
ASSISTANCE       assistance activities funded by the American Recovery and
PROGRAM          Reinvestment Act of 2009 (Recovery Act) were managed
                 efficiently and effectively. In particular, our work at the State and
                 local agency levels identified weaknesses in financial management
                 and inventory controls. In total, we questioned about $9.5 million
                 in unsubstantiated program support costs and $62,150 in other
                 questionable weatherization expenditures incurred by Baltimore
                 City Department of Housing and Community Development
                 (Baltimore City) and Montgomery County Department of Housing
                 and Community Affairs (Montgomery County).

                                        Financial Management

                 Local agencies claimed and were reimbursed for "program support
                 costs" that were not supported by invoices or other documentation,
                 or reconciled to actual expenditures, as required. Additionally,
                 local agencies claimed and were reimbursed for weatherization
                 activity costs, such as the installation of light bulbs and the repair
                 of windows and furnaces, which lacked required supporting
                 documentation or had been erroneously billed to the
                 Weatherization Assistance Program (Weatherization Program).

                        Claims for Reimbursement of Program Support Costs

                 Baltimore City could not substantiate reimbursement claims
                 totaling about $2.3 million for program support costs incurred from
                 November 2009 through July 2011. Maryland allowed agencies to
                 charge a flat rate allowance of up to 50 percent of the costs of
                 weatherizing a home for program support activities, up to $1,500
                 per house. Program support costs, according to State policy,
                 include transportation of weatherization materials to a site;
                 maintenance, operation, and insurance of vehicles used to transport
                 materials; maintenance of tools and equipment; storage of
                 weatherization materials; and liability insurance.

                 We found that, prior to our audit, Baltimore City had not
                 separately accounted for program support funds or reconciled
                 related expenditures, as required. Additionally, Baltimore City had
                 used program support funds to purchase and install furnaces, items
                 that should have been charged to leveraged funding sources such

Page 1                                                            Details of Finding
         as the Regional Greenhouse Gas Initiative, Maryland Energy
         Assistance Program, or Washington Gas Light.

         Further, Baltimore City officials told us they intended to use the
         money accruing from program support surcharges to cover future
         weatherization needs. Officials told us the funds would enable the
         agency to weatherize homes after the Recovery Act awards were
         completed. Officials planned to save some of the program support
         funds for such purposes, a practice expressly prohibited by Federal
         regulation. According to Baltimore City officials, they had
         misunderstood that unused grant funds could be used for
         weatherization purposes after the end of the grant period.

         Our findings are consistent with concerns regarding the lack of
         program support cost documentation expressed by the Department
         of Energy (Department) and the State. Department officials
         identified program support as an area of concern during their
         January 2011 and July 2011 monitoring visits. In its report on the
         July monitoring visit, the Department noted, "A recent Office of
         Inspector General (OIG) audit of the Maryland's Weatherization
         Program has raised questions regarding the process Baltimore City
         uses to account for reimbursement of administrative and program
         support costs." Further, the Department requested the State
         discontinue program support payments to Baltimore City until such
         time as Baltimore City could clearly account for reimbursements
         and expenditures related to program support, and ensure program
         support reimbursements were used for allowable program support
         expenses and not used to pay administrative expenses.

         State officials also identified concerns with Baltimore City's
         accounting for program support costs. State officials requested
         financial documentation from local agencies to begin financial
         reviews in January 2011. These officials told us that the State sent
         auditors to Baltimore City in May 2011, and other local
         weatherization agencies whose volume would indicate the
         potential for overpaying program support. According to State
         officials, as a result of its review, the State notified Baltimore City
         that it was discontinuing Baltimore City's program support funding
         because of concerns regarding the lack of documentation in August
         2011. The State also clarified its guidance on program support
         allowances to require a reconciliation of estimated to actual
         program support costs incurred and separate tracking of program
         support costs.




Page 2                                                    Details of Finding
         Additionally, in response to the Department's and the State's
         concerns, Baltimore City contracted with an accounting firm to
         reconcile requests for reimbursements. As a result of the work
         done to date, Baltimore City believes it can substantiate its claims.
         However, because the State did not begin its comprehensive
         financial review of local weatherization agencies until January
         2011, and Baltimore City's insufficient controls at the time of our
         audit, we question the $2.3 million in program support costs
         incurred from October 2009 through July 2011.

         Further, recent State monitoring reports disclosed that other local
         agencies had not reconciled program support expenditures to
         reimbursements. Accordingly, we question $9.5 million in
         estimated program support costs (including the previously
         questioned $2.3 million of program support costs claimed by
         Baltimore City), reimbursed to the State by the Department from
         October 2009 through December 31, 2011. Although the State
         disagrees with our questioning the $9.5 million in estimated
         program support cost reimbursements, as previously noted, the
         State's own monitoring reports have shown similar problems in
         reconciling such reimbursements to actual expenditures at other
         local agencies.

                                Unsubstantiated Costs

         In addition to our review of program support costs, we evaluated a
         sample of costs incurred by Baltimore City, and Lani Eko &
         Company, CPAs, PLLC (Lani Eko), an independent public
         accounting firm under contract with OIG, evaluated a sample of
         costs for Montgomery County that resulted in identification of a
         total of $62,150 in questioned costs that were not supported. For
         example, of the 89 transactions we tested at Baltimore City, we
         found 28 (more than 30 percent) lacked supporting documentation
         or had been erroneously billed to the Weatherization Program.
         The transactions for Baltimore City totaled about $49,150,
         excluding program support charges previously discussed.
         Specifically, we questioned:

                •   About $43,500 billed for installation of approximately
                    4,400 compact fluorescent light (CFL) bulbs or roughly
                    $10 per bulb. The CFLs cost about $1 each and were
                    part of a bulk purchase of 8,750 bulbs. Baltimore City's
                    energy auditors, whose regular salary was already billed
                    to the Weatherization Program, had installed them. In
                    effect, Baltimore City earned a profit of $9 per bulb.


Page 3                                                   Details of Finding
                    Federal regulations, specifically 10 CFR 600.222 (a)
                    (2), restrict profits earned by grantees, "Grant funds
                    may be used only for reasonable fees or profit to cost-
                    type contractors but not any fee or profit to the grantee
                    or sub-grantee." Baltimore City officials informed us
                    they did not intend to create a profit. Instead, they
                    intended to use the funds to weatherize additional
                    homes.

                    As a result of our audit, the Department required the
                    State to discontinue Baltimore City reimbursement for
                    any future CFL installation costs, account for total CFL
                    expenditures to date, and disallow any costs greater
                    than the actual cost of the CFLs. Baltimore City
                    officials reported discontinuing the practice and noted
                    they have reimbursed the State for excess costs
                    claimed.

                •   About $3,200 paid to vendors reportedly for printing
                    services, although there was no substantiating
                    documentation.

                •   About $2,450 expended on advertising and promotional
                    costs not justified under Federal and State grant
                    requirements.

         Subsequent to our audit, Baltimore City reported that it located the
         missing documentation related to the printing and professional
         services cost and had corrected a misclassification of advertising
         and promotional expenses.

         Lani Eko identified similar issues at Montgomery County where 6
         of the 45 transactions reviewed, including furnace and heating
         system repairs/replacements, had been erroneously charged to the
         Weatherization Program. The six transactions totaled
         approximately $13,000, and should have been charged to other
         energy related programs in accordance with State policy. The
         State first became aware of Montgomery County billing issues
         during its agency inspection visit in January 2010, and had taken
         action to correct these issues prior to our involvement. Concurrent
         with our audit, the State performed an extensive review of the
         Montgomery County Weatherization Program and temporarily
         suspended reimbursements until Montgomery County could
         develop a formal corrective action plan. The State's review
         concluded in May 2011, and as a result Montgomery County


Page 4                                                   Details of Finding
         reimbursed the State about $53,000, which included the costs
         associated with four of the transactions we tested.

                            Maryland Grant Agreements

         The issues we identified regarding unsubstantiated program
         support costs occurred, in part, because State agreements with
         local agencies were not always consistent with Federal
         requirements. Contrary to Department requirements and the terms
         and conditions of the State agreement with the Department,
         Baltimore City officials believed they could roll forward
         unexpended Recovery Act Weatherization Program funds after the
         grant period to future program years. State officials told us that
         local agencies were required to return unexpended funds within a
         Weatherization Program year to the State for reallocation to the
         local agencies in following years of the grant performance period,
         but not beyond the performance period. However, we found that
         the State's agreement with local agencies was not consistent with
         the State's policy and Federal requirements. Specifically, the
         State's agreement with local agencies states that:

                "All DOE Funds not expended within the Performance
                Period shall be rolled forward into the general budget as
                benefit dollars for the next State Plan."

         The Department requires states to submit plans for each grant
         performance period and prohibits the expenditure of funds after the
         performance period.

                                      Oversight

         The deficiencies we identified were not promptly detected because
         of a lack of adequate local agency monitoring by the State.
         Maryland's monitoring visits focused primarily on programmatic
         rather than financial activities. In fact, from September 2009
         through December 2010, the State had not performed a
         comprehensive financial review of any of its 18 local agencies and
         had only developed its financial monitoring tool in January 2011.
         Since implementing the financial monitoring tool, the State has
         reviewed the underlying financial policies and conducted a detailed
         transactional review at its local agencies. As previously discussed,
         it was not until the State conducted these reviews in 2011, two
         years following the initial passage of the Recovery Act, that it
         determined that local agencies could not fully justify costs in
         accordance with grant requirements.


Page 5                                                  Details of Finding
                                                Training

                  Baltimore City officials told us the deficiencies we identified were
                  also the result of significant Recovery Act demands and
                  insufficient time for properly training staff. Officials reportedly
                  prioritized production in an attempt to provide quality
                  weatherization services and to meet demanding weatherization
                  goals and acknowledged they had not adequately addressed
                  financial training needs. Officials also informed us that they had
                  little time for training staff on Federal regulations and proper
                  accounting for Recovery Act funds. Subsequent to our field work,
                  officials provided training on fiscal management and monitoring,
                  as well as Federal grants at a state-wide level.

                                             Other Reports

                  As previously noted, we have issued, under separate covers,
                  reports on Montgomery County and Prince George's County.
                  Under the Recovery Act, we were responsible for auditing local
                  entities of the Maryland Weatherization Program. To help fulfill
                  these responsibilities, we contracted with Lani Eko, an independent
                  certified public accounting firm. Lani Eko's reports include:

                       •    Examination Report on "Montgomery County
                            Department of Housing and Community Affairs -
                            Weatherization Assistance Program Funds Provided by
                            the American Recovery and Reinvestment Act of 2009"
                            OAS-RA-13-06, January 17, 2013; and,

                       •    Examination Report on "Prince George's County
                            Department of Housing and Community Development -
                            Weatherization Assistance Program Funds Provided by
                            the American Recovery and Reinvestment Act of 2009"
                            OAS-RA-13-05, January 17, 2013.

                  Details of the conclusions can be found in Lani Eko's reports.

RECOMMENDATIONS   In the absence of immediate improvements in financial controls,
                  the risk of fraud waste and abuse is increased. Accordingly, we
                  made recommendations to improve the financial management of
                  Maryland's use of Recovery Act funds. Specifically, we
                  recommend that the Contracting Officer for Energy Efficiency and
                  Renewable Energy (EERE):

                           1. Resolve questioned costs totaling $9.56 million.


Page 6                                                         Recommendations
                   We recommend that the Assistant Secretary for Energy Efficiency
                   and Renewable Energy require the State of Maryland to:

                          2. Provide training to its local agencies on Federal
                             regulations regarding the accounting for and use of
                             Federal funds.

MANAGEMENT AND     The Department, Maryland and Baltimore City provided
AUDITOR COMMENTS   responses to our draft audit report that are included in their
                   entirety in Appendix 4. Montgomery County and Prince George's
                   County comments are included in the previously discussed Lani
                   Eko Reports. We revised our report as appropriate to address
                   comments received. A summary of key responses is provided in
                   the following section.

                                 Management Comments (Department)

                   The Department agreed with our recommendations and will
                   continue to work with and monitor the grantees and subgrantees to
                   ensure resolution of the issues identified in the report. As a result
                   of our audit, the Department requested the grantee modify its
                   program support payment system to be consistent with EERE
                   guidance and perform a reconciliation of program expenditures.
                   The Department plans to evaluate the State's resolution of the
                   program support finding and the finding on allowable uses of
                   Federal funds.

                              Auditor Response to Department Comments

                   The Department's comments were responsive to our
                   recommendations.

                                     Management Comments (State)

                   Maryland understood the recommendations related to the findings
                   and will work with the Department and its local weatherization
                   agencies to implement our recommendations. The State plans to
                   complete a detailed review of local agency implementation of the
                   Department's instituted controls and work with the local agencies
                   to resolve the questioned costs. The State will provide training to
                   local agencies regarding the accounting for and use of Federal
                   funds.




Page 7                                       Management and Auditor Comments
         With regard to the Montgomery County local weatherization
         agency report, the State agreed to work with the County to improve
         the Weatherization Program. The State shared in Prince George's
         County's dissatisfaction with Eko's decision to issue a disclaimer of
         opinion after conducting audit activities throughout the duration of
         the bribery and corruption proceedings against the County Director
         of the Department of Housing and Community Development. The
         State and the Department have both reviewed Prince George's
         County's operations and have not detected an impropriety.

                        Auditor Response to State Comments

         The State's comments were generally responsive to our
         recommendations and conclusions.

         Lani Eko considered State and Department comments in issuing
         the opinion. Lani Eko began its review of Prince George's County
         operations following the plea bargain by the County Director of the
         Department of Housing and Community Development. Lani Eko
         continued with audit test work and disclaimed the opinion on the
         Weatherization Program when the individual related to the fraud
         was convicted.

                     Management Comments (Local Agencies)

         Baltimore City had expressed concerns with some of our
         characterizations, given the positive actions it had taken toward
         addressing our recommendations. Specifically, Baltimore City
         believed it has provided its employees and contractors sufficient
         training to meet the Department's program requirements. Further,
         while Baltimore City had initially misunderstood the allowable
         uses of Federal funds, Baltimore City had performed a complete
         reconciliation of expenditures following OIG discussions on the
         allowable uses of program support.

                  Auditor Response to Local Agencies' Comments

         Local agency comments and actions taken were responsive to our
         recommendations. Each local agency was reportedly taking action
         to address the issues identified in our report. Baltimore City
         officials provided a number of documents to support their actions
         taken to address the specific issues noted in the report, including
         the disposition of compact fluorescent light bulbs, identification of
         questioned costs, and reconciliation of program support
         expenditures. We have reviewed Baltimore City's provided
         support and actions taken by the City within the context of our
         report.


Page 9                                                           Comments
Appendix 1


                         SUMMARY OF QUESTIONED COSTS



        Agency                             Charge                      Amount

Maryland Department of
Housing and
Community
Development              Statewide program support charges               $9,500,000

Baltimore City           Charges for CFL bulbs                             $43,500
                         Unsupported printing costs                         $3,200
                         Advertising and promotional expenditures
                         not justified under OMB A-87                       $2,450
                         Subtotal, Baltimore City                          $49,150
                         Weatherization repairs and replacements not
Montgomery County        paid through leveraged funding sources             $13,000
Total Questioned Costs                                                   $9,562,150




Page 10                                                                 Questioned Costs
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether the State of
              Maryland (Maryland or State) had adequate safeguards in place to
              ensure that the goals of the Weatherization Assistance Program
              (Weatherization Program) under the American Recovery and
              Reinvestment Act of 2009 (Recovery Act) were accomplished
              efficiently and effectively and was in compliance with Federal and
              State laws and regulations.

SCOPE         This audit was performed between January 2011 and January 2013,
              at Maryland's Department of Housing and Community
              Development located in Crownsville, Maryland. We made site
              visits to one local agency − Baltimore City Department of Housing
              and Community Development (Baltimore City). Additionally,
              Lani Eko & Company, CPAs, PLLC, an independent public
              accounting firm under contract with the Office of Inspector
              General conducted site visits to two local agencies – Montgomery
              County Department of Housing and Community Affairs
              (Montgomery County), and Prince George's County Department of
              Housing and Community Development.

METHODOLOGY   To accomplish the audit objective, we:

                    •   Reviewed applicable Federal laws and regulations and
                        guidance pertaining to the Department of Energy's
                        (Department) Weatherization Program funded under the
                        Recovery Act and Maryland's Weatherization Program;

                    •   Held discussions with the Department's Project Officer
                        and Maryland officials to discuss current and ongoing
                        efforts to implement the requirements of the
                        Weatherization Program funded under the Recovery
                        Act;

                    •   Reviewed State and Department-wide monitoring
                        reports to identify systemic Weatherization Program
                        issues;

                    •   Reviewed applicant files and unit eligibility for
                        weatherization services;

                    •   Analyzed general ledger transactions to review costs
                        incurred;




Page 11                                   Objective, Scope and Methodology
Appendix 2 (continued)
                          •   Physically observed the quality of weatherization work
                              performed at two local agencies: Baltimore City and
                              Montgomery County; and,

                          •   Analyzed inventory controls and the procurement
                              process over weatherization materials, vehicles and
                              equipment.

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives. Because our review
                    was limited, it would not necessarily have disclosed all internal
                    deficiencies that may have existed at the time of our audit. Also,
                    we considered the establishment of Recovery Act performance
                    measures, which included certain aspects of compliance with the
                    GPRA Modernization Act of 2010 as necessary to accomplish the
                    objective. We reviewed the reliability of computer-processed data
                    and deemed the data to be reliable as it related to our audit
                    objective.

                    The Department waived an exit conference.




Page 12                                         Objective, Scope and Methodology
Appendix 3
                                       PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department of Energy's Weatherization
Assistance Program's internal control structures at the Federal, state, and local levels. Although
not found in every state, these audits have identified issues in areas such as poor quality of
weatherization services, inspections and re-inspections, inadequate inventory controls, and
questioned costs resulting from the ineffective administration of the weatherization grants. Our
series of audit reports include the following:

   •   Examination Report on Community Action Partnership of Orange County –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-13-03, October 17, 2012)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of Ohio (OAS-RA-12-13,
       June 25, 2012)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the State of New York
       (OAS-RA-12-07, April 6, 2012)

   •   Examination Report on Saratoga County Economic Opportunity Council, Inc. –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-12-05, January 20, 2012)

   •   Examination Report on Action for a Better Community, Inc. − Weatherization Assistance
       Program Funds Provided by the American Recovery and Reinvestment Act of 2009
       (OAS-RA-11-21, September 30, 2011)

   •   Examination Report on People's Equal Action and Community Effort, Inc. –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-11-20, September 30, 2011)

   •   Examination Report on Cuyahoga County of Ohio Department of Development –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act of 2009 (OAS-RA-11-19, September 29, 2011)

   •   Examination Report on Community Action Partnership of the Greater Dayton Area –
       Weatherization Assistance Program Funds Provided by the American Recovery and
       Reinvestment Act (OAS-RA-11-18, September 29, 2011)

   •   Audit Report on The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act in the State of Tennessee
       (OAS-RA-11-17, September 19, 2011)


Page 13                                                                            Prior Reports
Appendix 3 (continued)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act for the Commonwealth of
      Virginia (OAS-RA-11-14, August 25, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act in the State of Indiana
      (OAS-RA-11-13, August 23, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of Missouri (OAS-RA-11-12,
      August 22, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act in the State of West Virginia
      (OAS-RA-11-09, June 13, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program
      Funded under the American Recovery and Reinvestment Act for the State of Wisconsin
      (OAS-RA-11-07, June 6, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the Capital Area Community Action
      Agency – Agreed-Upon Procedures (OAS-RA-11-04, February 1, 2011)

  •   Audit Report on The Department of Energy's Weatherization Assistance Program under
      the American Recovery and Reinvestment Act for the City of Phoenix – Agreed-Upon
      Procedures (OAS-RA-11-03, November 30, 2010)

  •   Audit Report on Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
      Implement the American Recovery and Reinvestment Act Weatherization Assistance
      Program (OAS-RA-11-02, November 1, 2010)

  •   Audit Report on The State of Illinois Weatherization Assistance Program
      (OAS-RA-11-01, October 14, 2010)

  •   Audit Report on The Department of Energy's Use of the Weatherization Assistance
      Program Formula for Allocating Funds under the American Recovery and Reinvestment
      Act (OAS-RA-10-13, June 11, 2010)

  •   Preliminary Audit Report on Management Controls over the Commonwealth of Virginia's
      Efforts to Implement the American Recovery and Reinvestment Act Weatherization
      Assistance Program (OAS-RA-10-11, May 26, 2010)




Page 14                                                                    Related Reports
Appendix 3 (continued)

  •   Special Report on Progress in Implementing the Department of Energy's Weatherization
      Assistance Program Under the American Recovery and Reinvestment Act
      (OAS-RA-10-04, February 19, 2010)

  •   Audit Report on Management Alert on the Department's Monitoring of the
      Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02, December 3,
      2009)




Page 15                                                                  Related Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 16                            Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
Appendix 4 (continued)




Page 18                  Management Comments
Appendix 4 (continued)




Page 19                  Management Comments
Appendix 4 (continued)




Page 20                  Management Comments
Appendix 4 (continued)




Page 21                  Management Comments
                                                                 IG Report No. OAS-RA-13-07


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
